Appendix I:
Court Orders and Filings
Date

Document Name/Description

11/13/20
101151*0
8/1/19
8/30/19

Supreme Court of the State of Delaware Final Order and
Reargument Denied
Chancery Court Memorandum Opinion
Oral Argument On Application For Attorney's Fees And *Or\1
Counterclaim Plaintiffs' Motion For Reargument And Rulings
Of The Court
Supreme Court Motion for Reargument Is Denied

11/13/20
7/13/20
8/6/19

8/13/19
8/23/19
8/23/19
3/15/19
3/29/19
12/28/18
12/28/18
8/15/17
2/25/15
4/19/13

Informal Motion for Word Limit Extension/Letter to Court in
response to HLHA’s Attorney’s Letter to Court
Counterclaim Plaintiffs Motion for Reargument Under Rule
59(f)
Counterclaim Defendant's Response To Counterclaim Plaintiffs'
Motion For Re argument
Response To The Court's Request For A Letter Describing All
Remaining Issues To Be Resolved At Oral Argument______
Counterclaim Plaintiffs Supplemental Letter Motion for
Re argument
Counterclaim Plaintiffs' Post-Trial Closing Argument
Counterclaim Plaintiffs' Answering Closing Argument
Amended Pretrial Stipulation And [Proposed] Order APTSO
Exhibit A To Amended Pretrial Stipulation
Oral Argument On Respondent's (Vester’s) Motion For
"
Summary Judgement and the Court's Comments Transcript
Masters Report Regarding Motion To Amend - Add/Join Parties
United States District Court For The District Of Delaware For
Granting HLHA's Motion For Remand Pursuant to 28 U.S.C.
§1447
Case Law Examples
Reasonable Accommodation Claims/ Interactive Process/
Summary Judgement Dismissed for Deficient Request/ Exclude
IA/ Mediation Rulings______________________________________

Label
Page

A#
A

DI-180
DI-189

B
C

SC

D

SC

E

DI-181

F

DI-183

Fa

DI-185

Fb

DI-186

Fc

DI-171
DI-174
DI-161
DI-161
DI-148

G
H
I
la
J

DI-61
District
Court

K
L

M

fcjyewoi
^ *t\ 'f

5

<

"02T*A“

Ab"

EFiied: Nov 13 2020 11:00A
Filing ID 66108411
f

IN THE SUPREME COURT OF THE STATEOFDELAWARE9

JAKARA VESTER,
v.
HENLOPEN LANDING
HOMEOWNERS
ASSOCIATION, INC., and
PREMIER POOL AND
PROPERTY MANAGEMENT,
LLC.,

§

§

No. 417, 2019

§
§
§
§

Court Below: Court of Chancery
of the State of Delaware

§

C.A. No. 7229-VCG

§

The following docket entry has been efiled in the above cause.
November 13, 2020.

cc:

Certified copy of Orders dated October
15, 2020 and November 10, 2020
corrected November 12,2020, to Clerk
of Court Below. Case Closed.

The Honorable Sam Glasscock, III
Ms. Jakara Vester
Michael Ryan Smith, Esquire

Register in Chancery
Received Above
By
Date
Date: November 13, 2020
/s/Lisa A. Dolph
Clerk of the Supreme Court

Yti Np‘ k

A

f \

'■"■4

EFiled: Oct 15 2020 01:55PI$
Filing ID 66024651
Hi
Case Number 417,2019 (&(
IN THE SUPREME COURT OF THE STATE OF DELAWARE
JAKARA VESTER,

§

Counterclaim Plaintiff Below,
Appellant,
v.

§ No. 417, 2019
§
§ Court Below—Court of Chancery
§ of the State of Delaware
§

HENLOPEN LANDING
HOMEOWNERS ASSOCIATION, INC.,
and PREMIER POOL AND PROPERTY
MANAGEMENT, LLC,
Counterclaim Defendants Below,
Appellees.

§

C.A. No. 7229-VCG

§

§
§
§
§
§
§

Submitted: October 2,2020
Decided: October 15, 2020
Before VALIHURA, VAUGHN, and TRAYNOR, Justices.
ORDER
After careful consideration of the notice to show cause and the responses
thereto, it appears to the Court that:
(1)

The appellant, JaKara Vester, filed this appeal pro se from the Court of

Chancery’s post-trial decision in an action involving the enforcement of deed
restrictions and alleged violations of the Delaware and Federal Fair Housing A cts.
On February 28, 2020, Vester filed an eighty-page opening brief. An opening or
answering brief of an unrepresented party without access to a word processing

program cannot exceed thirty-five pages without leave of the Court.1 An opening or
answering brief filed by a party with access to a word processing program may not
exceed 10,000 words without leave of the Court.2 Vester’s opening brief was
stricken for exceeding the thirty-five-page limit, and she was directed to re-file a
new opening brief not to exceed thirty-five pages in length by April 2, 2020. This
deadline was extended to July 2,2020, as a result of the judicial emergency declared
in response to the COVID-19 pandemic.
(2)

On July 2, 2020, Vester filed an eighty-five-page opening brief

including a certificate of compliance,3 in which she maintained that the brief
complied with the type-volume limitation of Rule 14(d)(i). The appellees Henlopen
Landing Homeowners Association, Inc. and Premier Pool and Property
Management, LLC (“the Appellees”) moved to strike Vester’s opening brief under
Rule 34. The Appellees argued, among other things, that Vester had falsely certified
that her opening brief contained less than 10,000 words. We agreed with the
Appellees and granted the motion to strike. We declined to dismiss her appeal,
however, and allowed Vester to file an opening brief of no more than 10,000 words

1 Del. Supr. Ct. R. 14(d)(iii).
2 Del. Supr. Ct. R. 14(d)(i).
tw I6"
14(d)?X any br'ef SubjeCt t0 Rule 14(d>® must include a certificate of compliance
tha the brief comphes wrth the 14-point Times New Roman typeface requirement of Rule 13(a)
and the word count requirements of Rule 14(d)(i).
2

—7m

m comphance with Rule 14(d)(i)—along with a certificate of compliance under Rule
14(d)(ii)—by August 4, 2020.
(3)

On August 3, 2020, Vester filed a sixty-three-page opening brief. She

also filed a certificate of compliance, in which she maintained that the brief complied
with the type-volume limitation of Rule 14(d)(i). The Appellees moved to strike
Vester’s opening brief under Rule 34, arguing that the word count contained in
Vester’s certificate of compliance was misleading because Vester had omitted
appropriate spacing between punctuation and words. The Appellees asserted that
when the spacing errors were corrected, the actual word count of Vester ’s opening
brief exceeded 10,000 words. In her response, Vester denied any knowledge of
spacing errors contained in her third opening brief. On August 25, 2020, the Court
granted the Appellees’ motion to strike Vester’s brief for her failure to comply with
Rule 14(d)(i) and directed her to file an opening brief of no more than 10,000 words
m compliance with Rule 14(d)(i)—along with a certificate of compliance under Rule
14(d)(ii) by September 16, 2020. The Court also advised Vester that if she filed
another opening brief that failed to comply with the requirements of Rule 14(d), a
notice to show cause as to why her appeal should not be dismissed for her failure to

3

»

kM

comply with the Court’s rules.4
(4)

On September 15, 2020, Vester filed her fourth opening brief, The

sixty-two-page brief again omitted appropriate spacing between words and
punctuation marks, resulting in a misleading word count. The Court struck Vester’s
brief for non-compliance with the Court’s rules. On September 16, 2020, the Court
issued a notice to Vester to show cause why her appeal should not be dismissed for
her repeated failure to comply with the Court’s rules.
(5)

On September 28, 2020, Vester filed a response to the notice to show

cause arguing that the Court should not dismiss her appeal because—among other
things

she is proceeding pro se, her appeal concerns the protection of civil rights,

and her failure to comply with the Court’s rules was inadvertent. Vester also filed__
for the first time—a motion to extend the type-volume limitation of Rule 14. The
Appellees oppose the motion to extend the type-volume limitation of Rule 14 and
argue that Vester’s appeal should be dismissed.
(6)

We agree with the position taken by the Appellees. The Court allowed

Vester three opportunities to resubmit her opening brief and comply with the type-

in the August 25, 2020 order, we noted that a word processing program’s spell-check function
will flag many spacing errors. Also, by way of illustration and for Vester’s benefit, we inserted
appropriate spacing in a paragraph from Vester’s third opening brief that contained spacing errors.

4

volume limitation of Rule 14.

She has, for the fourth time, failed to do so.

Accordingly, we conclude that her appeal must be dismissed.
NOW, THEREFORE, IT IS HEREBY ORDERED, under Supreme Court
Rule 29(b), that the appeal is DISMISSED, The motion for leave to extend the typevolume limitation is moot.
BY THE COURT:
/s/ James T. Vaughn. Jr.
Justice

5

IN THE COURT OF CHANCERY OF THE STATE OF DELAWARE
HENLOPEN LANDING
HOMEOWNERS ASSOCIATION,
INC.,

)
)
)
)

Petitioner,

)
)

v.

) C.A. No. 7229-VCG
)

RUSSELL H. VESTER and JAKARA
VESTER,

)
)
)

Respondents,

)
)

RUSSELL H. VESTER and JAKARA
VESTER,

)
)
)

Counterclaim Plaintiffs,

)
)

v.

)
)

HENLOPEN LANDING
HOMEOWNERS ASSOCIATION,
INC., and PREMIER PROPERTY &
POOL MANAGEMENT, LLC, AJKJA
PREMIER PROPERTY
MANAGEMENT,

)
)
)
)
)
)
)

Counterclaim Defendants. )
MEMORANDUM OPINION
Date Submitted: April 5, 2019
Date Decided: August 1, 2019
Michael R. Smith, of THE SMITH FIRM, LLC, Seaford, Delaware, Attorney for
Petitioner Henlopen Landing Homeowners Association, Inc. and Counterclaim
Defendant Premier Property & Pool Management, LLC.

Richard H. Morse and Meghann O. Karasic, of COMMUNITY LEGAL AID
SOCIETY, INC, Wilmington, Delaware, Attorneys for Respondents.

I
■!

GLASSCOCK, Vice Chancellor

r;,--

A court of equity is, fundamentally, a forum to address those agency problems
arising where ownership and control of assets are separated. One such instance
involves ownership of real property in restricted developments, where owners have
ceded certain rights over use and development of realty via deed restrictions, as
enforced by homeowners’ associations. In twenty-odd years on the bench, I have
tried many disputes between property owners and homeowners associations, testing
the limits of the exercise of such enforcement. In nearly every such case, the
homeowner believes she has been singled out for unfair and overbearing—even
tyrannical—treatment by the associations. At times, this belief is vindicated; at other
times, not.
The matter before me is of this ilk, but with a twist. This case was originally
brought by the Henlopen Landing Homeowners Association, Inc. (the
“Association”) to enforce deed restrictions against the Plaintiffs Russell and JaKara
Vester (together, the Vesters), who own a house in the Henlopen Landing
development near Five Points, south of Lewes. The purported deed restriction
violations have all been mooted during the course of the litigation, and the
Association’s only remaining claim is for a mootness fee, which I will address by
separate opinion.
The remaining portion of the action is the Vesters’ Amended Counterclaim.
The twist is that the Vesters are an interracial couple with an autistic son, among

other children. The Vesters contend that the actions of the Homeowners were
motivated by animus against their race, their son’s medical condition, and the fact
that they had children, in violation of the Delaware and Federal Fair Housing Acts.
Their Amended Counterclaim seeks relief solely under those Acts.
The matter was tried over one day. This is my post-trial decision. It is
clear to me that the Vesters are sincere^ in their beliefthaL they have been,
discriminated against for invidious reasons, in violation of the Fair Housing Acts.Tt
is also clear that some of the violations of deed restrictions alleged by the
Association against the Vesters were( picayune, and at least one action—excluding
the Vester family from the use. of the community pool as coercion to remedy
unauthorized alteration of the Vester driveway—persisted Jong after_the.underlying
issue was remedied, and to that extent was ultra vires and improper And I
acknowledge that animus on racial, familial status, and disability grounds are among
V.

the evils that the Fair Housing Acts were created to remedy. Nonetheless, I find that
the Vesters failed to prove that the Association—or its property management agent,
Defendant Premier Property & Pool Management, LLC, a/k/a Premier Property
Management (“Premier”)—acted for reasons of animus regarding the Vesters’ race,
familial status, or disability, so as to be liable under the Acts. My reasoning follows.

1

I. BACKGROUND
Counterclaim-Defendant Henlopen Landing Homeowners Association, Inc.
initiated this litigation. However, trial was held to decide only the CounterclaimPlaintiffs Russell and JaKara Vester’s counterclaims to the Association’s Petition.
The facts that follow are only those relevant to those counterclaims, and were either
stipulated by the parties or proven by a preponderance of the evidence at trial.
A. The Parties
On November 11, 2010, the Counterclaim-Plaintiffs,1 the Vesters, purchased
a home in a housing development, Henlopen Landing, south of Lewes, Delaware.2
The Vesters are married and are an interracial couple.3 They have four children, one
of whom, ZaKai, according to his mother, has autism, evidence of which was not
established at trial, but was represented to (and accepted as true by) the Association
as early as June 27, 2011.4/0
Petitioner and Counterclaim-Defendant Henlopen Landing Homeowners
Association, Inc. is a non-profit Delaware corporation.5 Henlopen Landing is

1 The Vesters are also the Respondents to the initial Petition in this action.
2 Amended Pretrial Stip. and Order [hereinafter, APTSO], ^ II.l. All the following references to
the APTSO are to Section II of the APTSO, unless otherwise specified.
3 Id. 11.
4 Id. T[ 2; JX 11 (the Vesters’ application for various property modifications, noting “our child has
special needs”); JX 14 (the Henlopen Landing Architectural Review Board’s approval of a
heightened fence after “presentation from the Vesters regarding the needs of their child’’); see also
Crane Dep. 27:13-20.
5 JX 26, Art. I, Definitions, “Association.”

2

subject to the Declaration of Covenants, Conditions and Restrictions for Henlopen
Landing (the “Declaration”) and bylaws and regulations promulgated under that
authority.6 According to the parties, the Declaration empowers the Association to
govern Henlopen Landing.7
Counterclaim-Defendant Premier Property & Pool Management, LLC was the
property management company for the Association, at the relevant times to this
litigation. 8
B. Administration ofHenlopen Landing
1. The Declaration
- Property in the community of Henlopen Landing is subject to the Declaration.
As the Declaration describes, the developer of Henlopen Landing established the
Association for the purpose of, among other things, “maintaining and administering
the Common Area; . . . administering and enforcing;vcovenants, conditions and
restrictions ...; [and] adopting and enforcing rules and regulations.”9 Furthermore,
pursuant to the Declaration, the Association had the “power to provide, and shall
provide . . . [establish and operate the Henlopen Landing Architectural Board
”10

6 JX26.
1 Id. §3.5.
8 See JX 51.
9 JX 26, §3.5.
10Id. §3.5.4.

3

The Henlopen Landing Architectural Board (the “ARB”) was given the
“exclusive jurisdiction over all original construction, modifications, additions or
alterations made on or to all existing improvements . .

in Henlopen Landing.11

The Declaration specifically mentions “fence[s]” and “paving for driveways” as
examples of structures that cannot “be erected, placed or altered” before review and
written approval by the ARB.12 The ARB was tasked with establishing “design and
development guidelines and application and review procedures,”13 but the ARB
could “authorize variances for compliance with any of the provisions of [the
standards] when circumstances . .. require

”14

The Declaration itself contains certain limitations on the improvements that
homeowners can make to their property in Henlopen Landing. Pertinent here is a
provision on fences, according to which, “[f]ences, boundary walls, boundary line
hedges and shrubberies shall be prohibited within the front yard area of the lots and
in general, shall not be closer to the front of the lot than one-half (1/2) of the length
of the side of the dwelling unit. The height of any such fence, boundary wall,
boundary line hedge or shrubbery along the side of a unit shall not exceed four feet
(4’-0”). ”15

Fences were only permitted with “[p]rior written approval. . . from the

u Id. §7.2.
12 Id. §7.6.1.
13 Id. § 7.2.
14 Id. § 7.5.
15 7<L§ 8.2.1 (emphasis added).

4

Henlopen Landing Architectural Board.”16 Also pertinent is a provision regarding
any action that “will affect drainage of stormwater.”17 An application for such action
needs “to include a certification of non-effect of said plans from a professional
engineer licensed in the State of Delaware. ”18
The Declaration limits what homeowners can do to the common property of
Henlopen Landing and provides that “[n]o person shall alter in any way any
Common Area except with the written permission of the Developer or
Association. ”19

The Declaration also includes limitations on activities on a

homeowner’s property, such as “Garbage/Trash Disposal.”

According to the

Declaration, the Developer or the Association were to establish “reasonable
standards” for “garbage and trash receptacles or similar facilities.”20

These

“receptacles shall be placed only at the front of the dwelling in an enclosure
approved by the Developer or [the Association] and placed adjacent to the driveway
for the dwelling in a location approved by the Developer or Association.”21
However, “[i]f an Owner does not have a receptacle or similar facility approved by

16 Id
11 Id.
18 Id.
19 Id.
20 Id
21 Id

§ 8.2.2.
§7.3.
§ 8.26.
§ 8.15.

5

the Developer or Association, all garbage and trash must be kept in the Owner’s
garage

”22

If a homeowner committed an infraction of the Association’s published rules
and regulations, or breached or was in default of any of the covenants or provisions
of the Declaration, that homeowner’s rights to use Henlopen Landing’s common
areas could be suspended.23 If an infraction is singular and nonrecurring, suspension
of rights cannot exceed ninety days, following “notice from the Board of\£?
^Directors.”24 If an infraction is continuous or recurring, suspension, again following
notice, could extend up to ninety days after the infraction ceases or is remedied.25
2. Enforcing of the Declaration and Bylaws
The Declaration permitted the Association to hire a property manager for
Henlopen Landing.26

Premier, as the property manager, issued notices to

homeowners for violations of or non-compliance with the Declaration or
promulgated bylaws.27 It did so after conducting its own inspections or after
receiving “credible” reports from other homeowners in the community.28 However,

22 Id.
23 Id. §4.1.2.
24 Id. The “Board of Directors” is the board of directors of the Association, which governs the
Association. Id., Art. I, Definitions, “Board of Directors;” id. § 3.6 (determining the composition
of the Board of Directors).
25 Id §4.1.2.
26 Id. § 3.8.
27 See, e.g., JX 6; JX 9.
28 JX 9.

6

only the Association, and not Premier by itself, had the authority to suspend the right
of homeowners to use Henlopen Landing’s common areas in response to violations
of the Declaration.29 Premier also acted, generally, as a liaison between homeowners ,
and the Association, and specifically between homeowners and the ARB.30
C. The Vesters’ Application for Architectural Modifications of their
Property
1. The Vesters’ Requests
On June 27, 2011,31 the Vesters submitted a request to the Architectural
Review Board (the “ARB”) for five architectural modifications to their property.32
The Vesters requested that they be permitted to: (1) install an irrigation well; (2)
install a gazebo; (3) install a driveway expansion; and, most relevant here, (4) install
a six-foot-high fence that encompasses the side door of their garage.33 With respect
to the fence request, the Vesters indicated that they sought two exceptions to Section
8.2.1 of the Declaration, concerning fencing.34 First, the Vesters asked to exceed the
four foot height limit and build to a height of six feet because their “child has special
needs” and “could easily climb a 4 foot fence.”35 Second, the Vesters asked to “fence

29 JX 26, § 4.1.2; Trial Tr. 282:9-13 (Kimberly Rice).
30 APSTOK43.
31 Id. H 2; JX 11 (The Vesters’ request is dated June 24, 2011).
32 APTSO TH13, 4; see also JX 11.
33 APTSO 1ffl3,4;JX 11. The fence was considered to be two architectural modifications, as the
Vesters sought both a height variation and a location variation.
34JX11.
35 Id.

1

more than 1/2 of [their] side yard where our door for entrance to the garage is located
to alloy/ [them] the ability to let [their] dog outside in inclement weather.”30^*" ■z, n;^'r
filL-ftes-CS <4

fo 't'rs U\,

OK)^ hafSiC

With respect to the request to expand the driveway, the Vesters attached a
“Contract Proposal and Receipt” from a contractor that performed asphalt paving;
the proposal did not include any information on the grading or slope of the
driveway.37 Mrs. Vester also attended an ARB meeting on July 1, 2011, at which
she presented the four requests to the ARB.38
Mrs. Vester testified that the reason provided in her request for extension of
the fence to encompass the garage side door—to accommodate the family pet—was
pretextual. According to Mrs. Vester, the fence location variance, like the height
exception, was intended to accommodate her child, ZaKai’s special needs, by
allowing him access to the backyard through the garage.39 Mrs. Vester testified that
she worried that this real reason might be problematic for the ARB.40 Mrs. Vester
f

N

'

’

A

had discussed the matter with a neighbor who had a fence that enclosed her side
door, and based on that convexs.ation.-Mrs. Vester decided to instead indicate that

36 APTSO U 42; JX 11.
37 JX 11.
38 Crane Dep. 19:12-20, 21:2-8; Trial Tr. 91:4-8 (JaKara Vester). In post-trial briefing, Mrs.
Vester claims that she raised with the ARB, at this meeting, the importance of the fence
encompassing the side door of her garage, as well as the height of the fence, as a safety factor for
her special needs son. However, I find that her testimony does not support this. See Trial Tr.
97:14-98:12 (JaKara Vester).
39 Trial Tr. 73:6-78:13 (JaKara Vester).
40 Id. at 88:6-89:18, 89:23-90:2.

8

the fence location was for her pet (the same reason that Mrs. Vester testified her '
neighbor had given, resulting in approval of the variance).'?1 The Vesters’ home does
have several other doors that lead to their backyard;42 however, Mrs. Vester believed
that enclosing the garage’s side door was in the best interest of her special needs
child, ZaKai.43
2. The Architectural Board’s Decision
After Mrs. Vester presented her request in-person to the ARB, the Review
Board met and made a decision on the Vesters’ architectural modifications request. 44
On July 7, 2011, Premier e-mailed Mrs. Vester the ARB’s decision.45 The ARB
approved the Vester’s request for a six-foot-tall fence but denied the request to
extend the fence far enough to enclose the Vesters’ garage side door.46 Regarding
the fence requests, the ARB wrote, “[ajfter a presentation from the Vesters regarding
the needs of their child, the Board decided to grant approval for a [fence]... totaling
6’. The case for hardship was established. As a /condition of approvaljfhe fence
cannot be more than 1/2 the way up the side of the house
\

41 Id at 86:9-89:18.
42 Id. at 157:6-159:3.
43 Id. at 159:18-166:9.
44 Crane Dep. 34:8-13.
45 APTSO f 5.
46 Id H 5; JX14.
47 JX 14.
9

”47

The ARB approved several of the Vesters’ other requests, including
installation of a gazebo and installation of an irrigation well.48 The ARB deferred
decision on the Vester’s’ driveway extension request, and asked the Vesters to
submit “a plan from the contractor indicating the slope of the driveway is interior
not exterior.”49
3. The Vesters’ Attempt to Appeal the ARB’s Decision on the Fence
After receiving the ARB’s decisions, Mrs. Vester e-mailed Kate Roach of
Premier on July 7, 201T50 Mrs. Vester asked that the ARB reconsider its decision
on the location of the fence.51 Mrs. Vester noted in the same e-mail that others in
the community had received permission to build fences in similar locations “for the
same reason [the Vesters had] requested;.”52 presumably, to allow their pets to go
from garage to backyard. Again, this reason was pretextual. Mrs. Vester also asked
that the ARB consider that a fence enclosing their side garage door would prevent
others from tampering with the Vesters’ sprinkler system controls and other
vandalism.53 Mrs. Vester, however, did not disclose in her written request for
reconsideration her realjreason for the fence extension, to accommodate her son’s

48

APTSO U 4.
49Id.; JX 14.
50 APTSO 16.
51 Id.
52 Id. H 7.
53 JX 15, at 4.
10

special needs.54 At least one home in Henlopen Landing has a fence that encloses
the exterior side door of its garage.55
In regard to the driveway extension, Mrs. Vester wrote to Ms. Roach that
“[u]pon closer review of the proposal from the asphalt company we see that they did
^specify grading and the extension is to conform to the existing driveway which
should clarify that the grading and slope is in fact interior ... I have also asked the
contractor(s) if they could clarify this issue as well and all have stated that the
proposal should make that clear and that they do not do ‘grading plans. ’”56
C) On the same day, Ms. Roach replied by e-mail to Mrs. Vester and wrote that
she would direct Mrs. Vester’s concerns to the ARB and that either she or the ARB
would respond to Mrs. Vester.57 The practice at the time was for Premier to receive
requests for the Association, including architectural modification requests made to
the ARB, and prepare the requests for review by Association (and the ARB).'58
On July 13,2011, Mrs. Vester e-mailed Ms. Roach to follow-up on the request
for the ARB to reconsider their decisions on the fence and driveway.59 Ms. Roach
responded on July 14, 2011, writing “All has been approved.”50

54 Id.
55 APTS01^11-15.
56 See JX 13; JX 15.
57 APTSO | 8.
58 Id. TJ 43.
59 JX 15, at 3.
60 Id. at 2-3.

11

4. The Vesters Proceed with the Driveway Extension
The Vesters had sought and received a second proposal from the contractor
set to perform the paving and modification of their driveway.61 This second proposal
indicated that the work would be conducted to conform to the “existing driveway grade. All the way to road.”62 However, it does not appear that Premier, or the ARB,
received this second proposal from the Vesters before August 4, 2011,63 the day on
which the Vesters’ driveway was modified.
The Vesters, however, believed they had the necessary approval from the
ARB to proceed on all of their modifications, given Ms-Roach’s July 14, 2011 email stating, “All has been approved. ”64 VAs a result,a on August 4, 2011, the Vesters
proceeded to alter their driveway.65 An inspector for Premier was alerted to the
alteration and stopped by the Vesters’ home to discuss the driveway work being done
that day.66

61 JX 12.
62 Id.
63 The Counterclaim-Defendants questioned the document’s authenticity, as well as its date (the
second proposal is dated July 20, 2011 but the Vesters claim this was an error and the document
was created on July 2, 2011). In any case, the Vesters failed to show that Premier and/or the ARB
received this document prior to August 4, 2011 (or even prior to February 29, 2012). It is also,
then, immaterial whether this second proposal would have been sufficient for the ARB to approve
the driveway modification at that time.
64
JX 15, at 3.
65 APTSO 9. I note that there was conflicting testimony as to the extent of the interaction between
Mrs. Vester and the Premier inspector, including, what, if anything, the inspector said to Mrs.:
.Vester.'
66 Id. H10.

12

The Vesters completed their driveway alteration on August 4, 2011.67 Prior
to August 4, 2011, several homeowners in Henlopen Landing had altered their
t

^clriveways without prior approval from the Association.68 On August 22, 2011, the
Association requested the opinion of an engineer on the driveway drainage in order
to bring the Vesters’ driveway into compliance.69 Prior to August 22, 2011, the
1
^Association had never requireda homeowner to provide the opinion of a professional
•j

yx

engineer licensed in Delaware on storm water drainage when the homeowner
proposed (or completed) a driveway alteration.70 While the^e^rat^n^h|iica]ljy,, ^
required such an opinion,71 the ARB had, at most, instead requested a^lan iiSicating^^
slope from the contractor performing the work.72 Again, however, the record does
not show that the ARB had, by this point, received the second proposal of the
bar pi
Vesters’ contractor indicating that the slope of the driveway would not be altered.
On August 24,2012, almost a year after their driveway alteration, the Vesters
provided the Association with the opinion of a professional engineer, which
demonstrated that the drainage of the Vesters’ driveway, as altered, would have no
impact on the storm water management of Henlopen Landing.73

67 Id. If 9.
68 Id. ilf 24-28.
69 Id. 1131.
10 Id ^ 31.
71 JX 26, § 7.6.
72 APTSO Iff 29-30 (At least two driveway modifications were approved by Premier on behalf of
the Association without the opinion of a professional engineer); JX 14.
73 APTSO f 37.
13

D. The Vesters ’ Purported Violations
1. Violations Other than Driveway Non-Compliance
a. Violations Alleged Before June 2011
Prior to submitting their application for architectural modifications in lateJune 2011, the Vesters received a number of notices of non-compliance or violation
of the Henlopen Landing bylaws.74 Specifically, in April and May 2011, the Vesters
received notices alleging violations of bylaws on street parking,75 noise,76 operating
a business out of their home,77 playground equipment,78 and parking a commercial
vehicle in their driveway.79
On May 22, 2011, Premier sent the Vesters a letter “concerning the series of
citation letters [the Vesters had] received since [their] settlement in Henlopen
Landing.”80 The letter acknowledged that one such citation letter was sent in error
because Premier had applied the bylaw of a different community.81 A citation
regarding playground equipment was also issued in error, apparently by mistake of
one of Premier’s inspectors.82 In apparent response to concerns that the Vesters had

74 See JX 4; JX 6; JX 7.
75 JX 4; JX 7.
76 JX 6.
77 Id.
78 JX 9.
79 Id.
soId.
81 Id.
*2Id.

14

raised to Premier over the series of citation letters, Premier explained in their letter
that violation notices are issued in response to inspections or “credible report from
a Board, Committee or Owner Member,” but that in the future, Premier would first
“attempt to reach the owner'[subject to a potential violation notice] by phone if a
citation is at all questionable./”83

As a result, Premier removed citations for

“Commercial Vehicles, Play Yard Equipment and Operating a Business” from the
Vesters’ “owner record. ”84
b. Violations Alleged After June 2011
i. Plantings in the Common Area
Before the Vesters purchased their home in Henlopen Landing, several small,
shrub-like trees had been planted in front of the home, in an area between the street
and the sidewalk.85 When the Vesters moved in, the trees were dead.86 This area,
the Vesters concede, is considered part of the “common area” of Henlopen
Landing.87 After moving in, and around December 2010, the Vesters replaced some
of the small, dead trees with new, live trees.88 The Association considered the
planting of these trees to be a violation of the Declaration.89 Prior to January of

83 JX 9. Every homeowner in Henlopen Landing is an “Owner Member.” JX 26, Art. I, Definitions
“Owner;” JX 26, § 3.1.
84
JX 9.
85 Trial Tr. 127:13-23 (JaKara Vester).
86
Id. at 127:17-23.
87 Trial Tr. 175:21-176:14 (JaKara Vester); id. at 222:2-10 (Russell Vester).
88
Id. at 127:24-128:18 (JaKara Vester).
89
Verified Pet. for Enforcement of Recorded Restrictions, ^ 20-23.

15

2012, the Vesters were unaware that the plantings were considered to be in the
common area of Henlopen Landing and that the Association considered the plantings
to be a violation of the Declaration.90 The Vesters removed the plantings before
August 22, 2012.91
ii. Placement of Garbage Receptacles
The Declaration dictated that “garbage receptacles” be stored either within a
homeowners’ garage or “at the front of the dwelling in an enclosure approved by the
Developer or Association and placed adjacent to the driveway for the dwelling in a
location approved by the Developer or Association.”92 Prior to January of 2012, the
Vesters were unaware that the placement of their trash cans was in violation of the
Declaration.93 After January 2012, the Vesters stored their trash cans in several
locations, in an attempt to satisfy the Association; all were considered by the
Association to be in violation of the Declaration.94 In 2016, the Vesters built an
enclosure for their trash cans, which the Association considers appropriate.95
2. The Vesters’ Driveway Modification and Loss of Pool Access
While the Vesters may not have been aware of Association’s position that
their plantings and their placement of garbage receptacle were considered violations,

90 APTSO t 39; Trial Tr. 178:5-16 (JaKara Vester).
91 APTSO U 37.
92 JX 26, § 8.15.
93 APTSO U 38; Trial Tr. 183:18-184:3 (JaKara Vester).
94
Trial Tr. 131:19-132:14, 133:2-134:15 (JaKara Vester).
95 Id. at 223:3-224:23 (Russell Vester).

16

the Vesters were aware that the Association considered the driveway modification
to be non-compliant. On August 4, 2011, the same day the Vesters altered their
driveway, the Vesters’ pool key card, which gave them access to the community
pool at Henlopen Landing, was disabled.96
Association, rand performed by Premier.97

The decision was made^by the
The Association (through Premier)'

informed the Vesters that suspension of their pool access was in response to the
Vesters’ alteration of their driveway without prior approval. 98
Mrs. Vester(discovered that her pool access had been deactivated when she
and her family attempted to enter the pool area a few days after August 4, 2011.99
Mrs. Vester understood the reason given for the pool access deactivation was the
Vesters’ driveway modification, 100 but believed she had "obtained the requisite
approval; for the driveway modification because of, ’among other things, her
communication with Premier that herreguests had been “approved, ”101 Mrs. Vester
also believed that Premier (and the Association) had received her contractor’s
; second proposal, which she believed satisfied the ARB’s concerns on drainage. 102
There is no evidence, however, that such was the case.

”^44.OgOlil +*
98

Id. U 35.
99 Trial Tr. 111:12-112:14 (JaKara Vester).
100
Id. at 111:12-17, 114:21-116:10.
101
JX 15, at 2-3; see also Trial Tr. 115:7-117:2, 118:10-16 (JaKara Vester); JX 88.
102
Trial Tr. 118:10-13 (JaKara Vester).

17

^f1C^

Premier, under instruction from the Association, did not reactivate the
Vesters’ pool access, despite the Vesters’ requests.103 Mrs. Vester'e-mailed Premier
and made several visits and calls to their office*104 She sent an August 10, 2011 e'mail, in which Mrs. Vester detailed her frustration with Premier and the Association,
\

'■

the efforts she had taken to reactivate her pool access, the reasons she believed that
her driveway modification had been previously approved, and the importance of
pool access to her special needs child.105 Mrs. Vester concluded the e-mail by stating
that if her pool access was not reactivated and her concerns not addressed, she “will
be forced to seek the advice of an attorney. ”106
Ultimately, the Vesters’ pool access and key card were not restored until
^August 17, 2014, which represents a period of over three years without access. 107
E. The Vesters and the Association Both Seek Recourse,
1. The Vesters’ Complaint with Delaware Division of Human
Resources
On November 23, 2011, the Vesters filed a pro se complaint with the
Delaware Division of Human Resources (the “DDHR”) against the Association,
alleging housing discrimination.108 The DDHR then prepared a complaint it sent to

103

APTSO ffi[ 33, 36, 44.
Trial Tr. 114:21-119:16 (JaKara Vester); see also JX 88.
105
JX 88.
106
Id. at 3.
107
APTSO H 36.
108
JX 22.
104

18

the Association on December 21, 2011, accompanied by a questionnaire that the
Association was required to fill out.109 The Association completed its response to
the questionnaire onjanuary 13, 2012. no The Vesters received the Association’s
response in January of 2012, and at that time learned that the Association considered
the Vesters to be in violation of the Declaration because of the plantings and the
garbage receptacles, in addition to their driveway.111 The record produced at trial
does not indicate how the DDHR investigation was resolved.

Io, n

Is

2. The Association Initiates Litigation in the Court of Chancery
Prior to October 12, 2011, the Association’s counsel had already begun
drafting a complaint against the Vesters."2 On February 7, 2012, the Association
filed a Complaint against the Vesters in the Court of Chancery. 113 The Association
brought three counts for violations of the recorded restrictions in the Declaration,
and sought injunctive relief.114 The three violations were for the driveway, the
plantings, and the trash cans.115 As described, these violations have been resolved.
On August 15, 2017, the Association’s claims were dismissed as moot, following
Oral Argument on the Vesters’ Motion for Summary Judgment on the same day.116

109

JX 23.
no JX 25, at HL000724.
111 Trial Tr. 129:13-20, 178:5-16, 183:18-184:3 (JaKara Vester).
112 JX81, atHL000849.
113 See D.I. 1, Verified Petition for Enforcement of Recorded Restrictions.
114 Id.
U5Id.
116 D.I. 147.

19

F. Evidence in the Record ofDiscriminatory Intent
The gravamen of the Vesters’ Amended Counterclaim is that they have been
discriminated against by the Association and the other homeowners of Henlopen
Landing. The body of evidence supporting this claim comes almost entirely from
Mrs. Vester’s testimony. Mrs. Vester testified that other homeowners in Henlopen
Landing or employees of Premier made comments to her indicating that “some
people” in Henlopen Landing believed it “should be like a retirement
community, ”117 that she was told that she “should be on a cul-de-sac if [she has]
kids, ”118 and that she received violation notices initiated by the complaints of other
homeowners because, according to Mrs. Vester, those homeowners did not like
children, and/or did not approve of interracial marriage and biracial children.119 Mrs.
Vester’s testimony as to those statements was not supported by the testimony of
others (or record evidence), including, in some cases, those who she stated shared
such comments with her.120
G. The Association and the Vesters ’ Currently
The Association concedes that the Vesters are currently in compliance with
the Declaration and by-laws governing Henlopen Landing.121 As mentioned, the

117

Trial Tr. 92:18-93:4 (JaKara Vester).
Id. at 95:12-19.
119
Id. at 117:3-118:9.
120
See id. at 206:16-207:4 (Larry?Hofer); id. at 53:17—54:5, (Jami Harrigan-Faro); id. at 293:12—
294:21 (Jeffrey Rice).
^
121 See, e.g., Pet’r’s Opening Br. in Support of its Fee Application, at 1-2.
118

20

UJ;
hj

Vesters’ pool access was restored on August 17,2014. However, the Vesters never
constructed a fence enclosing their backyard. They still desire to construct a sixfoot-tall fence that enclose the side door of their garage. The record does not reflect
why the fencing that was approved to accommodate ZaKai was not built. Since their
^request to extend^ the_fence _ was denied, the Vesters have provided additionally^
information regarding.ZaKai’s disability to the association.122
H. Procedural History
The procedural history of this case is long; interested readers should consult
the docket. Suffice it to say, this action began with the Association’s Petition, filed
on February 7, 2012. The action was removed to Federal Court and then remanded
(to this Court).123 After more than seven years (and a Master’s report, exceptions to
the Master’s report, motion practice, and judicial mediation), 124 trial was held on
February 19, 2019 on only the Vesters’ counterclaims (which added Premier as a
party to this litigation). The Petitioner’s claims, as mentioned, have been mooted.
II. ANALYSIS
My discussion is below. I note that there are a number of inconsistencies
between the allegations of the Amended Counterclaim, the pretrial stipulation, and
the post-trial briefing. In an attempt to address the Counterclaim-Plaintiffs’ claims

yL

^"l22!See, e.g., JX 33. f><

prdA

123 See D.I. 8; D.I. 9.
124 See D.I. 61; D.I. 86; D.I. 129; D.I. 150.

21

3

5-^

comprehensively and efficiently, my analysis is organized by the three alleged
statutory violations (each alleging a corresponding violation of both the Federal and
Delaware Fair Housing Acts)125 as set forth in the Amended Counterclaim. With
respect to each, I set out the statutory elements of the claims as the parties have
stipulated in the pretrial order. 126 I then address the arguments of the parties
regarding the evidence of record as set out in the post-trial briefing, and then, to the
extent necessary, any other allegations to the extent not waived.
A. Intentional Discrimination
In Counts I and IV of their Amended Counterclaim, the Vesters allege that the
Association and Premier have intentionally discriminated against them based on
their race, their familial status, and their child’s disability, in violation of State and
Federal Fair Housing law.127

To establish a prima facie case of intentional

125 The Vesters bring various claims against the Association and Premier under both the Delaware
and Federal Fair Housing statutes. These statutes, to a large extent, mirror one another. Therefore,
I discuss the alleged violation of analogous provisions together. See Newark Landlord Ass ’n v.
City ofNewark, 2003 WL 21448560, at *9 (Del. Ch. June 13, 2003).
126
The parties have agreed on the elements that the Counterclaim-Plaintiffs need to establish for
each violation of the FHA. APTSO, Ex. A. I have accepted this stipulation, without independently
confirming its accuracy.
127 According to 42 U.S.C. § 3604(b), “it shall be unlawful... [t]o discriminate against any person
in the terms, conditions, or privileges of sale or rental of a dwelling, or in the provision of services
or facilities in connection therewith, because of race, color, religion, sex, familial status, or national
origin. According to 42 U.S.C. § 3604(f)(2), “it shall be unlawful to . . . [t]o discriminate the sale
or rental, or to otherwise make unavailable or deny, a dwelling to any buyer or renter because of a
handicap of... a person residing in or intending to reside in that dwelling after it is so sold, rented,
or made available.” According to 6 Del. C. § 4603(b)(2), “it shall be unlawful... [t]o discriminate
against any person in the terms, conditions or privileges of sale or rental of a dwelling, or in the
provision of services or facilities in connection therewith, because of race, color, national origin,

22

discrimination the Vesters must prove that a similarly situated party, during,a similar
time period, was treated differently byJhe Association^ (or Premier), and. that this
disparate treatment was due, in part or in whole, to discriminatory intent. 128
Discriminatory intent, in turn, may be shown through either direct or circumstantial
evidence.129 If circumstantial evidence is employed, the McDonnell Douglas burden
shifting framework is employed, whereby: the Vesters must show the CounterclaimDefendants acted with discriminatory animus towards them; which shifts the burden
to the Defendants to show that acts were taken with a non-discriminatory interest;
which would again shift the burden to the Vesters to show that alternative practice
was available, winch has a less disparate impact-and meets the legitimate needs of
The Defendants. 130
1. The Suspension-of the Vesters’ Pool Access
The only discriminatory act to which the Vesters point in post-trial briefing is
the suspension of their access to the community pool. It is clear that for three years,
the Vesters’ access card was disabled, and thus the Counterclaim-Defendantstfeated
rthe Vesters differently than other property owners, who had use of the pool.

religion, creed, sex, marital status, familial status, source of income, age, sexual orientation, gender
identity or disability.”
128APTSO,Ex. A., at 1.
129 Id.
mId.

23

However, the Vesters have failed to show that their use of the pool was suspended
because of their race, familial status, or disability (or other impermissible criteria).
The Vesters applied to the ARB for permission to alter their driveway. Such
alteration, per the Declaration, requires written permission of the ARB. Driveway
)

alteration can affect storm water drainage. Such an action therefore requires “a
- certification of non-effect of said plans” on drainage from a professional engineer
licensed in the State of Delaware.131 The Vesters’ application, however, did not
attach such a certificate, nor did it even contain a statement from the contractor
addressing drainage.

I note that the record suggests that the ARB has been

inconsistent on what it has required regarding proof that a driveway alteration will
not affect drainage, from nothing, to a statement by the contractor. After the ARB
considered the Vesters’ application, it deferred the matter, and requested “a plan
from the contractor indicating the slope of the driveway is interior, not exterior. »132
There is frio evidence that this request was made as a result of invidious
, discrimination, and I find the request itself was not discriminatory.
The Vesters obtained a plan from their contractor that appeared to satisfy the.
condition of the ARB,.but I find that a copy of the plan was never given to the ARB.
. . *•

- -

Mrs. Vester did inform Ms. Roach at Premier that her review of the paving proposal

131 JX 26, § 7.3.
132 JX 14.

24

(indicated that the grading would be “interior” and that she had asked the contractor
to “make that clear,”133 information that Ms. Roach agreed to pass on to the ARB,
but it has not be shown that the actual plan was given to the ARB (or Premier).

b.

Nonetheless, a week later, Mrs. Vester inquired of Ms. Roach about the status of the
applications (which included the fence, gazebo, and water well applications as well
as the driveway alteration; some of which had already been approved), and Ms.
Roach responded “all has been approved.” This was an error—in fact, the ARB had
not approved the driveway.
Relying on the email from Ms. Roach—and without the written permission of
the ARB as required by the Declaration—the Vesters had their contractor alter the/

vW/f

,

Mar

driveway two weeks later on August 4, 2011. It was in this context that the Vesters

At

were denied use of the pool by Association. The Vesters were informed that their
common area access was cut off because they had altered the driveway without the
prior approval of the ARB. Shortly thereafter, on August 10, 2011, Mrs. Vester^
informed Premier that if her family’s access was not restored, she would consult an

,

, attorney. On August 22, 2011, the Association demanded a professional engineer’s
certification on drainage before approving the driveway alteration.

Such a

certification is required in the Declaration, but had not been required of other'
residents altering driveways. A year would pass before the Vesters complied.

133 JX 15.

25

v
-

Because this is a statutory discrimination claim, I need not determine who was
at fault for the series of misunderstandings here. Premier told the Vesters that “all”
their requests had been granted by the ARB. This was untrue, but was relied upon
by the Vesters. The Declaration, however, required written authorization from the
4■

f

. ARB before driveway alteration could commence, and the ARB had informed the
Vesters that it would not consider the request without a contractor’s statement that
drainage would be “interior,” a statement that, I find, it did not receive before the
Vesters’ contractor altered the driveway. Once
Mrs.
Vester threatened legal action,
c
.
the ARB insisted on a professional engineer’s report on drainage, in compliance with
the Declaration but not consistent with prior practice with other homeowners. In
this context, the pool access was cut off. This was a coercive action specifically

a

contemplated by the Declaration.13-

V overall

Pec!*,—,//■— o"^

r-'t (.if

In other words, I find that the denial of common-area access was not based on
racial, familial status, or disability discrimination. It was instead part of a dispute
over the Vesters’ alteration of their driveway without written approval of the ARB.
The actions of the Association may appear excessive and petty, and^denial of pool j
access continued after the time permitted by the Declaration. But I find that the
e'pftr{ £s^7CcK My
Sa

1* f/

Thif
l-k/ecj

5S

Po* l ^<v5 t-l

,V 134 Access was denied long after the professional engineer’s report was provided to the ,\Jf
fj’ Association, which is not consistent with the Declaration.
26

Association and Premier were not motivated by discrimination as defined by the
‘ statutes.' -

?

Mrs. Vester attempted to bolster her contention that invidious discrimination
was at work by pointing to hearsay (and double hearsay) statements indicating that
homeowners within the Henlopen Landing held discriminatory animus toward
children and interracial couples. The statements, however, were made in the context
of the violation notices based only on the complaints of other homeowners, which
’ the Vesters had received prior to June 2011. Even as described by Mrs. Vester, no
specific statement pertained to the Association’s decision to suspend the Vesters’
pool access. Furthermore, Mrs. Vester’s testimony was controverted by some of the
same people whom she alleged made the statements at issue.
2. Violation Notices
The Vesters, in their post-trial briefing, focus exclusively on the suspension
of pool access to show discrimination. In their Amended Counterclaim, the Vesters
had contended that notice of violations given by Premier to the Vesters in the months
before the driveway application was made were based on discriminatory animus held
by other homeowners, causing those homeowners to make spurious complaints to
Premier, which caused Premier to issue the violation notices to the Vesters.135
Because this theory was not addressed in briefing, I consider it waived. In any event,

135 Resp’ts’ Am. Answer, Defenses and Countercls., Countercls., ffif 44, 52.

27

the Vesters point to no evidence that Premier was acting with discriminatory intent
with respect to these notices, which were resolved between Premier and the Vesters
amicably by removing the notices from the Vesters’ record.
B. Reasonable Accommodation
In Counts II and V of their Amended Counterclaim, the Vesters claim that the
Association denied them “reasonable accommodation” under State and Federal Fair
Housing law because of their child’s disability.136 Specifically, they point to the
ARB’s denial of a request to extend a fenced-in yard to include the side door to the
garage, which would serve to accommodate the need to monitor their autistic son, •
ZaKai. To establish a failure to provide a reasonable accommodation, the Vesters
must prove: (1) they or someone in their household is a person with a disability; (2)
the Association knew or reasonably should have known that the Vesters or someone
in their household is a person with a disability; (3) the Vesters requested a reasonable
accommodation in the rules, policies, practices, or services of the Association; (4)
the requested accommodation is necessary to afford the Vesters an equal opportunity
to use and enjoy their dwelling; and (5) the Association refused the Vesters’ request

136

According to 42 U.S.C. § 3604(f)(3)(B), “For the purposes of this subsection, discrimination
includes ... a refusal to make reasonable accommodations in rules, policies, practices, or services,
when such accommodations may be necessary to afford such person equal opportunity to use and
enjoy a dwelling.” According to 6 Del. C. § 4603A(a)(2), “[Discrimination on the basis of a
individual’s disability includes ... [a] refusal to make reasonable accommodations in rules,
policies, practices or services, when such accommodations may be necessary to afford such person
equal opportunity to use and enjoy a dwelling.”

28

to make an accommodation, or failed to respond or delayed responding to the request
such that it amounted to a denial.137
Per the Vesters, they wished their son to haye^access tojiistoys in the..garage.
^and at the same time have access to the backyard, which needed to be fenced because
■he is an elopement risk due to his autism. The Vesters allege that their request to
extend their proposed fence to encompass the side door of their garage for this
purpose sought a reasonable accommodation, and the denial of the accommodation
by the Association was therefore discriminatory. The Vesters have, however, failed
to prove, at least, one of the necessary statutory elements; that \hey_requested a /
' reasonable accommodation from the Association.
In their initial request to the ARB, the Vesters indicated that they sought a
height variance, from four to six feet, for the fence to accommodate the needs of
their son, who, they averred, could scale a four foot fence. The ARB granted that
OiH mo
I
clt-cs' l\
request. They also sought a variance to the placement of their proposed fence, in
order to extend the fenced yard toward the front of the property to encompass the
side garage door. Such a variance was necessary, presumably, because the setback
requirements for fencing in the Declaration only allow fencing to the midpoint of

137 APTSO, Ex. A, at 3-4.

29

tfV?

the side of the house. 138 According to Mis. Vester, whose .testimony I accept,,her
C
intent in making this request was to accommodate ZaKai’s autism, as described
.Mir-

^

T

'T'

"

above. However, this was not what she initially told the ARB in her written request.
To the contrary, she told the ARB that she wanted to allow her dog to come in from
r. '
the back yard through the garage,/to keep the living areas clean. This was the
rationale initially presented to the ARB, not the special needs of the Vesters’ child. ,
When this request was denied, the Vesters asked for reconsideration. In their written
•\

request for reconsideration, they still maintained the pretextual rationale regarding
their pet, and added the reasoning that a fence extension would enclose the controls
to their sprinkler system and prevent vandalism. Again, the rationales, presented to
the ARB in the Vesters’ written requests^ for the fence extension wefepretext, and
the Vesters jdid not request an accommodation for the special needs of their child.
The request for reconsideration was not granted by the ARB. Because the Vesters

O' did not request an accommodation for their son’s, autism, the accommodation claim
under the Fair Housing Acts must fail.
The Vesters never explain why they did not state in their applications to the i
ARB that the fence-extension request was to accommodate ZaKai’s special needs.
The ARBwas aware of their child’s special needs, because the Vesters requested^

138

I need not resolve the deed restriction issue here, but I note that the fencing restriction is
ambiguous. I also note that no scale drawing or other cognizable evidence gives me the dimensions
of the house and yards at issue.

30

variance of the permitted height of a fence on thafsame-groundr This height variance
was granted, and was granted explicitly to accommodate their child’s needs.
<\'I do not know the Vesters’ rationale for disclosing the need for an
accommodation for fence height, but not disclosing the true purpose for the extent
of the fence in their written variance applications. They may well have believed that
their actions were in the interests of their family, in a way not obvious to me. But
they cannot base a reasonable "accommodation claim on the ARB ’ s denial ofthe
fence extension,{under these circumstances. Nothing herein relieves the ARB from

ir ■ -

addressing^the Vesters,Current fence variance requestfan issue addressed below.
C. Retaliation
Finally, in Counts III and VI ofthe Vesters’ Counterclaim, the Vesters allege

that the Association has retaliated against them for attempting to exercise or enjoy
their rights under State and Federal Fair Housing Acts. Such retaliation would

[

violate the Acts. 139 To prevail on this claim, the Vesters must show: (1) someone
in their household is a member of a protected class, (2) they enjoyed a protected
right, (3) the conduct by the Association was motivated, at least partially, by

139

According to 42 U.S.C. § 3617, “It shall be unlawful to coerce, intimidate, threaten, or interfere
with any person in the exercise or enjoyment of, or on account of his having exercised or enjoyed,
or on account of his having aided or encouraged any other person in the exercise or enjoyment of,
any right granted or protected by section 3603, 3604, 3605, or 3606 of this title.” According to 6
Del. C. § 4618, “It shall be unlawful to coerce, intimidate, threaten or interfere with any person in
the exercise or enjoyment of, or on account of that person having exercised or enjoyed, or on
account of that person having aided or encouraged any other person in the exercise or enjoyment
of, any right granted or protected by § 4603, § 4604, § 4605 or § 4606 of this title.”
31

--^

intentional discrimination, and (4) the Association coerced, threatened, intimidated,
or interfered on the account of the Vesters’ exercising their protected right. 140 The
Vesters, a mixed-race family with an autistic child, are members of a protected class.
However, I do not find that the Association was motivated by discrimination, leading
it to interfere with exercise of a protected right of the Vester’s.
1. The Filing of this Action
The Vesters sought to exercise their rights under the Fair Housing Acts by/
bringing a complaint before the DDHR. / The Vesters, in their Amended
Counterclaim, suggest that the Association took two retaliatory actions, “raising
unfounded concerns about the driveway alteration” and commencing this action. In
Post-Trial briefing the Vesters focus their argument entirely on the Association’s
decision to bring an action in the Court of Chancery against them.141
The Vesters argue that the Association, by bringing this action, has unlawfully
retaliated against them for exercising their rights under the fair housing laws by
bringing their complaint with the DDHR. The Association would have become
aware of the Vesters complaint to the DDHR when the DDHR provided it with the
Vesters’ complaint on December 21, 2011. By the Vesters’ own admission counsel

140

APTSO, Ex. A, at 5.
141 By not arguing that they have demonstrated actionable retaliation relating to the driveway
alteration in post-trial briefing, I find, the Vesters have waived the argument that the Association’s
actions regarding the driveway alteration are retaliatory in violation of the Fair Housing Acts. In
any event, for reasons explained at length above, I do not find the denial by the ARB of the request
to alter the driveway was motivated, in part or whole, by intentional discrimination.

32

for the Association had begun drafting their Petition against the Vesters at least as
far back as, October 2011.142 While the Association’s Petition was not filed until ]
February 7, 2012, preparation had begun before the Association was aware that the
Vesters had filed their own complaint^with^the DDHR. The Association’s Petition
sought to enforce three restrictive covenants, related to the Vesters’ driveway, the
plantings, and the placement of garbage receptacles.
The Vesters were aware that the Association considered their driveway, as
altered, to be non-compliant, however, the Vesters allege that they had received
approval (evidenced by the email from Premier) for the work, and that the
Association’s allegations of non-compliance were pretextual and discriminatory.
The Vesters also, I assume, believed they would be vindicated through their DDHR
complaint.143 From the perspective of the Association, however, the Vesters had
violated the Declaration by submitting an incomplete application for driveway
alteration, and by altering the driveway without the written permission of the ARB.
I find no evidence that the Association’s motivation in this action to enforce the
Deelaration regarding the Vester’s driveway alteration is pretextual or motivated, in
part, by discrimination, or is in retaliation for the exercise of the Vesters’ rights under
the Fair Housing Acts. To the contrary; I find the action was brought because from

142 Countercl. Pl.’s Post-Trial Closing Arg., at 20.
143 The record at trial appears to be silent as to the outcome of the Vesters’ complaint before the
DDHR.
33

the point of view of the Association, the Vesters had responded to the ARB’s request
for more information regarding drainage with a self-help construction of the altered
driveway, creating afait accompli and denying the ARB the opportunity to fulfil its
1.
V-v
^ -T.'.
S/ — P
'-9a'
i </•-« ■
■" l'7 • X'
l
S
‘
‘ ~
4' duty under the Declaration. It is worth noting that there is no evidence, or even
suggestion, that the litigation in this Court was an attempt by the Association to
coerce the Vesters into dropping their DDHR complaint. 144 The Association’s
complaint that the Vesters were in violation of the Declaration with respect to the
driveway, I-Tind, was brought in good faith, not for reasons of discrimination or
wrongful retaliation.
The Vesters point out that the Association included in their Complaint
allegations that the Vesters were in violation of the Declaration in two additional
ways. First, the Complaint included the allegation that the Vesters were not keeping
their trash cans in the garage or in an enclosure, in violation of the Declaration. This
was, in fact, true, and the Vesters have since constructed a compliant enclosure for
the trash cans. Second, the Association alleged that the Vesters had placed small
trees in the common areas, also in violation of the Declaration. Again, this was true.
The Vesters have caused the trees to be removed. These allegations of the Complaint
have been vindicated, and the requests for relief from the violations mooted.

144 See 42 U.S.C. § 3617.

34

(

The two allegations were also picayune and petty. The Vesters did not receive

T

violation -notices prior to the Association bringing this litigation, which might have
^

avoided the need for these countebeing part of the Petition^, The record, I note,

i-

/j'

indicates that the Association-had not previously brought legal action to enforce the A •
Declaration against any homeowners, and certainly not before providing notice to
the homeowner of a violation. While the inclusion in the Petition of the driveway
alteration was substantive and reasonable, the allegations regarding the tree planting
J

)

and trash can storage appear to be an attempt to lard the complaint with minutiae, as
ahard litigation tactic. The record does not suggest it is more than that, however. I
do not find adding these claims was in part retaliatory,for the.exercise ofrights.under—
the Acts, or based on discrimination because of race,.family or disability.
2. Other Basis for a Retaliation Claim
The Vesters claim that the ARB’s driveway concerns were unfounded, and
were simply a way to harass the Vesters in retaliation for their request for a fencelocation variance for their child. This claim fails, I find, for several reasons. I have
explained above that there was a good-faith reason for the ARB’s request for
drainage information before permitting the driveway alteration. This retaliation
'

.

.T

- --------------------- -----------------

*

■

'

'

-

-------

*

claim must fail for another reason: the ARB granted the requestfor a fence variance
to the extent the Vesters sought an accommodation for their son’s special needs.

35

Vi

There is simply no basis to find that the ARB refused an accommodation, let alone
that it retaliated for the mere request for an accommodation.!,
D. Remaining Issues
The Association seeks a mootness fee for obtaining compliance with the deed
restrictions of the Declaration, with respect to the driveway, the tree plantings and
the trashcan storage. They claim to be entitled to recover legal fees from the Vesters
under 10 Del. C. § 348(e) (as well as 25 Del. C. § 81-417(a)). The Vesters, I note,
did not seek contractual, as opposed to statutory, damages for the wrongful
continued denial of pool access (that is, denial more than 90 days after the Vesters
provided the requested professional engineer’s report). It is unclear, however, if the
Vesters seek to offset any contractual damages against any fee the Association may
recover under Section 348. Finally, the Vesters tstill seek an accommodation for
c."

, their child’s^autism in the location of the fence, the ARB should act on this request 7
fpromptly, based on the Vesters’ true reason for applying for the variance, as an
accommodation for their child’s disability, as well as the information submitted.by,

4i '
‘

... ....

- - ----

the Vesters since the variance was denied. I retain jurisdiction to oversee this
request.
III. CONCLUSION
The Vesters have failed to show a basis for their State and Federal Fair
Housing Claims. The parties should confer and inform me of how the remaining

36

j

;*V
" vV

issues should be addressed, and provide an appropriate form of order concerning the
statutory claims, consistent with this Memorandum Opinion.

y
■0

«•

37

r

30 201911:24APPS£IK
ID 64147932 pg>

COURT OF CHANCERY TUDICIAL AC^O^jgj

-A

£/

Date:
&'nfl5S

Plaintiff:

• 'tfanjtili 'N ■

^

Defendant:

Civil Action No.:
Sussex County

□ Kent County

□ New Castle County

□ Chancellor Bouchard
□ Vice Chancellor Laster
Vice Chancellor Glasscock
Vice Chancellor Montgomery-Reeves

□
□
n
0
□

Vice Chancellor Slights
Vice Chancellor Zunt
Vice Chancellor McCormick
Master Griffin
Master Molina

Proceeding:
0
□
f~l
□
0

Motion for Def. Judgment
Motion for Sum. Judgment
Motion to Dismiss
Post-Trial Oral Argument
Tele Conf. Status
Other

□ TRO
Attorneys' Fees
Office Conference
0 Tele Conf. Scheduling
0 Preliminary Injunction

ttlM.

□
□
□
□

Settlement Hearing
Bench Ruling
Pre-Trial Conference
§347 Mediation

'liuLMlUl, 'J~

Reporter:
0 Neith Ecker
0 Jeanne Cahill
0 JuliLaBadia

jES, Debi Donnelly
y 0 Dennel Niezgoda
0 Other
7

¥Lt

r/Yflmkfri.
n

dt

^

do

i

TTf&n

Plaintiffisl Attornevfsk

Defendani(s) Attomey(s):

i- .^4

Court Clerk:

til®?-,

End Time:

M Mf
C

10; 2>0 4 a/I

1

IN THE COURT OF CHANCERY OF THE STATE OF DELAWARE
HENLOPEN LANDING HOMEOWNERS
ASSOCIATION, INC.,
Petitioner,
v

C . A. No.
722 9-VCG

RUSSELL H. VESTER and JAKARA VESTER,
Respondent s,
RUSSELL H. VESTER and JAKARA VESTER,
Counterclaim Plaintiffs,
v
HENLOPEN LANDING HOMEOWNERS
ASSOCIATION, INC., and PREMIER
PROPERTY & POOL MANAGEMENT, LLC, A/K/A
PREMIER PROPERTY MANAGEMENT,
Counterclaim Defendants.
Chancery Courtroom No. 1
Court of Chancery Courthouse
34 The Circle
Georgetown, Delaware
Friday, August 30, 2019
10:04 a.m.
BEFORE: HON.

SAM GLASSCOCK III, Vice Chancellor.

ORAL ARGUMENT ON APPLICATION FOR ATTORNEYS' FEES AND
COUNTERCLAIM PLAINTIFFS' MOTION FOR REARGUMENT and
RULINGS OF THE COURT
CHANCERY COURT REPORTERS
Leonard J. Williams Justice Center
500 North King Street
Suite 11400
Wilmington, Delaware 19801
______________ (302) 255-0522________

2

1.
2
3
4
5

APPEARANCES:
MICHAEL R. SMITH, ESQ.
The Smith Firm LLP
for Petitioner and Counterclaim Defendants
MEGHANN O'REILLY KARASIC, ESQ.
Community Legal Aid Society, Inc.
for Respondents and Counterclaim Plaintiffs

6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
CHANCERY COURT REPORTERS

3

1

THE COURT:

Good morning.

Thank you

2

for making the trek down.

3

There are two orders of business before us.

4

the motion for reargument.

5

for attorneys'

6

application.

7

fees.

I am happy to see you.
One is

The other is the request

I had a mootness fee

I am prepared to rule on the fee

8

application.

It was adequately briefed,

9

have everything I need to rule on it.

and I think I

But first I

10

would like to hear the motion for reargument, because

11

it may have an effect.

12

the motion.

So I'm happy to have you argue

13

MS. KARASIC:

14

Meghann Karasic on behalf of the

Your Honor.

Thank you for giving us the

15

Vesters,

16

opportunity to argue the motion.

17

Your Honor.

Thank you,

I think because the HLHA has agreed to

18

grant the Vesters the fence, the only issue that we

19

really have to discuss today is the issue of the

20

reasonable accommodation.

21

In your opinion,

22

THE COURT:

Your Honor

So just so I'm sure

and

23

I think it was implicit in the materials I was given.

24

But the grant of the fence extension comes past the
CHANCERY COURT REPORTERS

1

4

1

door,

2

able to build a fence in a location that will

3

accommodate them at this point?

and your clients are satisfied that they will be

4

MS. KARASIC:

5

counsel for HLHA that

6

application,

7

submitted for the location as previously requested,

8

and that it's been granted.

9

we have submitted an

the same application that was previously

THE COURT:

Is that correct?

10

MR.

That is,

11

THE COURT:

SMITH:

12

think that was very wise.

13

action.

Your Honor.

All right.

Thank you.

So go ahead, please.
MS. KARASIC:

15

So having that out of the way,

Thank you,

Your Honor.
I just

16

want to kind of focus us,

17

reasonable accommodation under the federal and the

18

state Fair Housing Acts.

20
■ 2 1,

if we could,

So in your opinion,
that the claims under those

on the

Your Honor found

for the Vesters,

those

\
claims failed because they had not made the requests!.

/ -

<22
Y;-,
2 3\
<

2'4.
O'

„I

And I appreciate the quick

14 .

19

c

I have been advised by

So I would like to draw attention to the fact that
HLHA is admitting that they did receive a second
request prior to the counterclaim being filed and
CHANCERY COURT REPORTERS

5

1

their response to the counterclaim itself.

2

they also

3

of evidence at trial.

you know,

4

And then

the admission of several pieces

THE COURT:

No;'and those pieces of
>

c*

5

evidence are the ones that were objected to,

6

as part of the settlement negotiation.

7

it's your position they were not part of the

8

/settlement negotiation.

'

I understand

/

MS. KARASIC:

9

I assume,'

Correct.

Because if

they were requests

10

they were part

11

under the Fair Housing Act.

12

settlement

13

exchange.

14

except maybe to drop the case.

15

t o make th_e_ request under the Fair H-0.u-s-i-nq- Act

16

they are part of a settlement negotiation,

17

they can never come in as evidence,

. 18
19
20

if they were

If they were part of a

there was nothing bargained for in that
I mean,

there was nothing being given back,
So that’s the only way
If

and then

there is no other

way to make_that request when counsel_is representing
a party._
THE COURT:

But there was vho formal
* - ^

21

request
the Homeowners Association with a new
O U L'of
U

22

application that recited the accommodation?

23

MS. KARASIC:

24

Well,

there was 'no

/second variance or ARB application, that is correct.
. CHANCERY COURT REPORTERS

6

But under the Fair Housing Act,
accommodation,

Your Honor,

a reasonable

under the law, ;’it does not

'need to be made in writing formally.
orally.

It can be made

It certainly helps under the law and under

case law that it be made in writing.
THE COURT:

Can you point me to a

single case where there was a request for a variance,
and the request was made pretextually and it was
denied; and then there was a second request,

and there

was a new pretextual reason for the request,

and it

was denied.

And then thereafter,

there were

communications that may have referred to the Fair
Housing Act,

but didn't seek a new application for a

new reason..

And in that situation,

a court found that

there was a violation of the Act.
MS. KARASIC:
actually.

2017 ,

Your Honor,

I can,

I think that I can do that for you.
So,

was a case,

Yes,

first,

in the Third Circuit there

the Revock case,

which was decided in

which refers to some other circuit cases.

So

I'm going to try to take us there.
So a lot
of homeowners

there have not been a lot

and I know this is being thought of

as a variance, but I want us to hopefully think of it
CHANCERY COURT REPORTERS

•

7

as a fair housing request under the reasonable
accommodation law.
So here, this request was made as a
reasonable accommodation.

And as part of that,

even

though- there doesn't have to be an ARB application for
that request, they submitted that initially.

And I am

accepting that they did not make that request
appropriately at that time.
Moving forward,

they sent a reasonable

accommodation without an ARB application.
Revock case,

Under the

there was an accommodation request made

without the documentation that the condo association
required.

And the Court and the Third Circuit,

because there was no response,
THE COURT:
different situation,
documentation,

But that's a completely

isn't it?

They didn't have the

but it wasn't a pretextual request.

They didn't say,
dog,

the Third Circuit

"the reason we want to do this is our

or vandals who might mess with the sprinklers,

because it will look nice,
need a fence."

or

or because my mother says I

It was an actual request for an

'-accommodation ‘that didn't have the supporting
documentation that the Homeowners Association needed.
But can you cite me to a single case where there were
CHANCERY COURT REPORTERS

8

1

multiple pretextual requests for a completely

2

different reason,

3

application would not implicate the Fair Housing Act;

4

and then,

5

for accommodation?

after two rejections,

6

,■

for which a rejection of the

MS. KARASIC:

there was a request

So getting to that,

I

7

know you are saying Revock is different, but it makes

8

sense, because they are citing to cases that explain

9

this .

So they are saying if the housing authority or

10

the person that is the decision-maker has questions or

11

they are skeptical about the documentation or that

12

there is actually reasonable accommodation required,

13

it's incumbent upon them --

14

THE COURT: r It's not skeptical.C

15

MS. KARASIC:

16

THE COURT:

It is,
No,

17

that they were skeptical;

18

something completely different.-'

Counsel.

It ' s not

\

it's that they were told

MS. KARASIC:

19

though.

A/of ioh,f tlikhhRU/i

Okay.

But then,

when

20

they were given the reasonable accommodation with the

21

doctor's note, ,they were told something from a doctor

22

and from the person with the disability.

23

point,_they were on notice_t,o_make furtjier inquiry ifj

24

they were skeptical about it.
r

-

------ ..

..

__

,

_ r

CHANCERY COURT REPORTERS

At that

V

9

1

and

That moment when they received it,

2

they admit that they received it, was a request.

3

ignoring that request,

By
And

they denied the request.
-“3

4

so the Revock Court also points to Bhogaita,

5

another

6

more to the point because it is a case where there

7

were halfway houses,

8

responding.

9

want the halfway houses in our

it's an 11th Circuit case.

which is

That case is

and it was a city that was

The city reached out and said,

"We don't

you know, this is a

10

zoning ordinance issue."

11

suit prior to making a reasonable accommodation

12

request.

Here,

And the halfway houses filed

we've made the request.

13

THE COURT:

14

MS. KARASIC:

The halfway houses what?
They filed suit in

15

federal court,

16

accommodation had been denied.

17

in part on the basis that a reasonable

Here,

I'm saying that the second

18

letter that was sent to the HLHA was a reasonable

19

accommodation request.

20

counterclaim.

21

formal reasonable accommodation request.

22

District Court said,

23

reasonable accommodation request formally,

24

don't you guys talk and try to work this out."

That was prior to the

In Bhogaita,

"Well,

they had not even made a
The Federal

you haven't really made a

CHANCERY COURT REPORTERS

so why
So

10

1

they then started discussing the accommodation,

2

couldn't reach an agreement.

3
4

The city still said,
want the halfway houses.

5

"No,

we don't

We deny your request."

When it went to the circuit,
"Well,

.They

the 11th

6

Circuit said,

7

to filing suit.

8

claim.

9

was some 'interactive dialogue,' as required under the

you didn't make the request prior

This would normally be fatal to your

10

fair Housing Act,> here,

11

an application for the zoning variance,

12

let it go through because it's incumbent upon the

13

city,

14

ask for more evidence if they are skeptical."

15

that is,

16

*

However, because you negotiated it and there
/

even though you didn't submit

as the decision-maker,

I think,

t

we're going to

to make the decision to
And

analogous to where we are.

THE COURT:

All right.

And so you are

17

arguing that I should find that there was a denial of

18

a fair accommodation for purposes of fee shifting.

19

that what's left in this?

20

MS. KARASIC:

21

THE COURT:

22

Anything else you want to tell me?

23

MS. KARASIC:

24

fees,

Yes,

Is

Your Honor.

All right.

I understand.

As far as the mootness

I would just like to
CHANCERY COURT REPORTERS

/N.

11

1
2

THE COURT:
them.

You don't need to argue

Go ahead.
MS. KARASIC:

3

I just want to say that

I know we are talking about fee shifting,

4

I think

5

but I also want to point out that,

6

not filed anything as far as fees.

7

presumptuous after I started to file it.

8

also like to say that,

9

the extent that we can parse out what portion of the

you know,

I have

I felt like it was
But I would

in terms of mootness fees,

to

10

litigation from HLHA was a defense of the Fair Housing

11

Act,

12

defending a Fair Housing Act under those statutes.

I don't think that they are entitled to fees for

THE COURT:

13
14

Thank you.

15

MS. KARASIC:

16

THE COURT:

17

I tend to agree with that.

response,

‘Thank you,

Your Honor.

Did you want to make a

Counsel?
The argument is that I have erred as a

18
19

matter of law,, because even though there wasn't a

20

third request for a variance, there was a sufficient
C

21

request in the course of this litigation for an

22

accommodation of the homeowners'

23

rise to a finding that your client's in violation of

24

the Act for purposes of shifting fees.

O—---

son that should give

CHANCERY COURT REPORTERS

Is that

12

1

MS. KARASIC:

2

THE COURT:

3

All right.

Go ahead.

4

MR.

First,

5

l
\

Honor.

SMITH:

Yes .
what you are arguing?

good morning,

Your

Mike Smith here on behalf of Henlopen Landing.

6

THE COURT:

Pleasure to see you.

7

MR. SMITH:

I will be brief.

8

Honor indicated,

9

actual application after that.

As Your

I don't believe that there was an
The materials that are

10

submitted that were considered at trial more or less

11

phrase that as an appeal of the prior request.'

12

don't think the Court w_a_s ^required to -make a decision

13

on whether or not,

14

in, whether a receiving party could consider the prior

15

reasons "prete x t u a’i’71hat were put on the record in

16

consideration of a future request.

17

eve r _ had.i.o-reach~thai-, -and _1- -t^nmic'Th a tT's an"" issue

18

-j

I

- '

if a subsequent request had come

I don't think you..-:.?

(for' anobhel: clay . i

19

But in the document that was

20

THE COURT:

What day will that be/Q

MR.

Hopefully,

21

Mr. Smith?

22
23
24

here .

SMITH:

That's all I can say.
THE COURT:

But,

not when I'm

yeah,

I mean ...

I think it's an issue for

CHANCERY COURT REPORTERS

13

1

today or for never,

2

MR.

pretty much.

Right ?

SMITH:

I mean,

Well,

I think

3

right now,

4

ambiguity of the document,

5

it's not

6

they submit a second application today.

7

have to submit it as a reasonable accommodation.

8

can submit it and have it as a matter of right,

9

other owner could.

So

they have the fence.

we don't have to reach a decision on if

10
11

because of the Court's ruling on the

THE COURT:
already been approved.

12

MR.

Well,

I thought

i'

SMITH:

They don't

t

It has.

They
as any

it had

• (I'

,1

What I'm s a”y i n g

13

is if any owner in the community now submits a request

14

that says

15

because I need a reasonable accommodation," that's

16

great.

17

going to get it either way.

"I need a fence up the side of my yard

It's a reason they put on record.

18

They are

But in the joint letter that was

19

submitted,

20

three exhibits that were in the joint binder:

21

and 74,

22

the remaining issue was isolated to the
29,

34,

and then paragraph 29 of the responses.
Just to touch on those very quickly,

23

paragraph 29 of the response I don't believe says

24

anything different than what's been stated already on
CHANCERY COURT REPORTERS

14

1

the record,

2

and I don't think that it asked for a new

application.

And the other three exhibits were

:

3

objected to and not considered as evidence/

4

don't know that they are ^appropriate fori

5

consideration.

6

been advanced at this point,

7

that could be considered for reargument.

'So I don't know that any grounds have
as far as this context,

8

THE COURT:

9

Any response?

10

one,

So I

All right.

Thank you.

You don't need to make

but I am happy to hear if you want to make one.

11

MS. KARASIC:

12

THE COURT:

13

Look,

No,

Your Honor.

Thank you,

Counsel.

my view of this is the same as

14

it was when I wrote the decision.

15

inappropriate in a case where a homeowner makes not

I think it is

----

16

one,

17

the matter is in litigation, ^there are attempts to

18

settle the matter or resolve issues,

19

as a Fair Housing Act request for an accommodation.

20

It seems to me that it would be inejgu it able to do so;

21

that it would not be_consistent with the__policy_ of the

22 V law.(
23
24

but two pretextual applications,- and then,

once -

to consider that

And so I deny it here.
If I'm wrong, you can take an appeal.

But I think having requested a variance,
CHANCERY COURT REPORTERS

with the

15

1

understanding that the reason for the variance was an

2

accommodation for the convenience of the owners with

3

respect to their ^dog

%

and then to have asked again for
t *

i

4

reconsideration 'of that request and said that the

5

reason was augmented by a desire to keep vandals away

6

from the side of the property,

1

of attempting to work out the action',

8

accommodation for the homeowners

9

strike me as the kind of a scenario that warrants

10
11

and then,

in the course

seeking anh

son,

that doesn't

finding that the fact that this matter went forward to'
~a determination in court rather than an immediate

12

capitulation by the Homeowners Association is a

13

violation of the Fair Housing Act.

14

Counsel,

I'm wrong.

15
16

And if I'm wrong,

But that's how I view it.

So I'm denying the motion for
reargument.

17

I do note that there is no substantive

18

reason to revisit this issue.

19

forthrightly stated

20

perhaps a fee-shifting issue, but otherwise is not

21

pertinent to the issues that were before me.

22

And as counsel has
it ' s

and I don't minimize it

So I turn from that to the fee
Tell me the dollar amount again, Mr.

23

request.

24

that you are seeking.
CHANCERY COURT REPORTERS

Smith,

16

1
2
3

MR. SMITH:

The total incurred as of

the date that this was submitted, August 28th,
.,$1 68, 680 . 07 .

was

However, we did submit a secondary

4

number, which was the amount incurred through

5

August 15th,

6

award.

2017, which was the date of the mootness

And that was ' $ 128, 2 94 . 82.

7

THE COURT:

All right.

Thank you for

8

reminding me.

9

$128,000, based on two primary arguments.

So there's a request for 168,000 or
One is that

10

this is a Section 248 case,

11

that way,

12

And the other is that the declaration that governs

13

this development requires a shifting of fees.

14

there are three violations of the declarations that

15

are pertinent here for which fees are sought.

16

to look at those,

17

and determine a reasonable fee, because both the

18

statutory and the contractual fee-shifting provisions

19

are cabined by reasonableness.

20
21
22
23

or at least started out

and Section 248 mandates a shifting of fees.

And

I need

see if they trigger a mootness fee,

The first thing is the driveway.

The

Vesters applied for a variance to build a driveway.
Jhey .reiied in good faith on the statement of the
property manager that their request had been granted.
—D

24

They hired a contractor,

who came in and started

CHANCERY COURT REPORTERS

17

1

construction .

It wasn't until that
point that they
*«

2

were put on notice that at least there was,-some

3

disagreement as to whether they had received

4

permission to put in the driveway.
The matter devolved into/1itigation,

5

^

*>

And it was a dual

6

•1jrgely over the f ence _issue .

7

litigation track.

8

Homeowners Association then demanding something that

9

hadn't been demanded of other homeowners,

But it seems to me that the

that there

10

be a compliance with the letter of the declarations

11

that an engineer's report be produced,

12

litigation tactic.

13

required,

14

But eventually they got it,

15

compliance.

16
17

building the driveway without the permission of the
«
v
As I say, that was done ini
Homeowners Association.

18

good faith.

19

sought for.

was part of a

7
It doesn't seem to me that it was

because it was not required of anyone else.
and the driveway is in

So there was a technical violation of

So that's the first thing that fees are

The second involves the garbage

20

It is quite true that having garbage

21

receptacles.

22

receptacles on the side of the house was in violation

23

of the restrictions.

24

been settled by simply writing a letter to the Vesters

I-think^this easily could have

CHANCERY COURT REPORTERS

18

1

and asking them to put the garbage cans in the garage.

2

Nonetheless,

3

litigation,

4

This was a makeweight allegation.

5

allegation about the garbage receptacles in this

6

litigation.

7

section of fencing to obscure the cans to bring them

8

in compliance.

9

are sought.

by that point, the matter was in
at least from the Vesters' point of view.
I find a makeweight

And the Vesters eventually put up a
*

10

That's the second ground on which fees

The third ground is the plantings in

11

front of the Vesters' house.

12

bushes that were in the common area.

13

those with live bushes.

14

litigation,

15

brought,

They replaced

Then once this was in

again I believe fa makeweight claim was

and they removed the bushes.

16
17

r'

There were three dead

Those are the three things for which
$168 , 00.Qj in fees are sought.

18

So,

first,

I turn to Section 348.

348

19

mandates that I shift fees in a litigation involving

20

homeowners and an HOA where either party has

21

prevailed,

that fees be shifted except where it would

22

be unfair,

unreasonable,

23

or 168,000,

24

here by the Homeowners Association would,

or harsh.

or any amount,

Awarding 128,000

for the'results obtained

CHANCERY COURT REPORTERS

in my view,

19

1

be unfair, would be unreasonable,

2

harsh.

3

Section 348.

and it would be

So I'm denying the shifting of fees under

4

However,

Section 12 of the governing

5

documents of the homeowners requires fee shifting as

6

we 11 .

7

The litigation over the driveway, as I've said,
o
r'
/
was in part a result of the other litigation in this

f
VX
/

8

matter.

9

technically a requirement of the Vesters,

The litigation sought something that was
an

10

engineer's report.

11

the Homeowners Association, because when the Vesters

12

ultimately complied,

13

the report was not something required of other

14

homeowners,

15

in good faith.

16

worked a benefit,

17

and,

But it ultimately did not benefit

there was not a drainage problem,

as I found,

the Vesters were acting

So I find that to the extent that
it was a minimal benefit.

The trash cans were moved.

I've said

18

that was a litigation makeweight.

To the extent it

19

wasn't, the benefit to the development and the

20

Homeowners Association and its members between the

21

nonlitigation result that I am convinced could have

22

been achieved withoutlitigation,

23

actually obtained in the litigation,

24

to nil .

and the result
was nil or close

CHANCERY COURT REPORTERS

20

1

With respect to the plantings,

2

exchanging beautiful living bushes for ugly dead

3

bushes was a technical violation because the property

4

was not that of the Vesters, but belonged to the

5

common areas.

6

removed,'and could have been removed,

7

without litigation. ■ And in any event, there is simply

8

no benefit here.

9

green bushes were a,benefit compared to the -dead

However,

living those bushes were
I'm sure,

In fact, both no bushes and living

10

bushes that the Homeowners Association apparently was

11

content to have exist and blight the appearance of the

12

neighborhood.

13

So I have to set a reasonable fee.

In

14

setting a reasonable fee,

15

out the factors that I must address.

16

in the Sugarland case and I think apply here as well.

17

When I look at the benefit

18

important.

19

because they are not really helpful

20

here is nil,

21

amount of $1 'from the Vesters to the Homeowners

22

Association.

23
24

our Supreme Court has set
They are set out

that is the most

I'm not going to go through the rest

or near nil,

the benefit

and I shift fees in the

What issues remain for us now,
Counsel,

from the point of view of the Vesters that we
CHANCERY COURT REPORTERS

21

1

could address today?

2

Counsel,

anything from your side?

3

MR.

4

THE COURT:

5

I just want to say,

SMITH:

No,

Your Honor.

Thank you.
this litigation I

6

think was motivated on both sides by an opinion that

7

the party was in the right,

8

strongly that they were not being treated we_ll___bv the

9

other side?

that both sides felt

This has been an awfully expensive,

10

emotional,

11

I can say to rectify that, but I will say this anyway.

12

Your clients and your clients are neighbors.

13

going to have to live together.

14

fees here,

15

consider,

16

money damages for the denial of the pool rights,

17

went o n f ar longer _ than s h pul, d .ha ve - eve r_ happene d,

18

would consider an offset for the contractual value of

19

those rights.

20

you have got to live together as neighbors.

21

have to be best friends; but for goodness'

22

chilled me to the bone, Mr.

23

"These are issues for another day."

24

damaging litigation.

There is very little

They're

If I were to award

I will tell you honestly,

Counsel,

I would

even though there was not a request for

You-all have got to live together,

Smith,

I

and

You don't
sake,

when you said

I hope that all parties can live
CHANCERY COURT REPORTERS

that

you

22

1

together as neighbors so that there's not another

2

expensive, unpleasant day in court.

3

that,

4

I think you did a credible job and litigated this well

5

and aired the issues well.

6

helpful to anyone to go on-.

7

And when I say

I am not faulting the attorneys on either side.

But this just..is not

I will get off my high horse.

8

probably said too much already.

9

appearing here today.

I have

I thank you for

The briefing was helpful.

I

10

know neither side got what they were asking for, but

11

sometimes that happens,

12
13
14

I guess.

Thank you very much.

I hope you have

a good trip back.
(Court adjourned at 10:30 a.m.)

15
16
17
18
19
20
21
22
23
24
CHANCERY COURT REPORTERS

/

23

1
2

CERTIFICATE

3
4

I,

DEBRA A.

DONNELLY,

Official Court

5

Reporter for the Court of Chancery of the State of

6

Delaware,

7

Realtime Reporter,

8

hereby certify that the foregoing pages numbered 3

9

through 22 contain a true and correct transcription of

Registered Merit Reporter,

Certified

and Delaware Notary Public,

do

10

the proceedings as stenographically reported by me at

11

the hearing in the above cause before the Vice

12

Chancelor of the State of Delaware,

13

therein indicated,

14

through 22,

15

on the date

except for the rulings at pages

which were revised by the Vice Chancellor.
IN WITNESS WHEREOF I have hereunto set

16

my hand at Wilmington,

17

2019 .

this 20th day of' September,

18
19
20
21
22

13

/s/ Debra A.

Donnelly

Debra A. Donnelly
Official Court Reporter
Registered Merit Reporter
Certified Realtime Reporter
Delaware Notary Public

23
24
CHANCERY COURT REPORTERS

EFiled: Nov 12 2020 10:49A!

Filing ID 66103576
Case Number 417,2019

/
i

IN THE SUPREME COURT OF THE STATE OF DELAWARE
JAKARA VESTER,

§
§
Counterclaim Plaintiff Below,
§
Appellant,
§
§
v.
§
§
HENLOPEN LANDING
§
HOMEOWNERS ASSOCIATION, INC., §
and PREMIER POOL AND PROPERTY §
MANAGEMENT, LLC,
§
§
Counterclaim Defendants Below,
§
Appellees.
§

No. 417, 2019
Court Below-Court of Chancery
of the State of Delaware
C.A. No. 7229-VCG

Submitted: October 30, 2020
Decided: November 10, 2020
Corrected: November 12, 2020
Before VALIHURA, VAUGHN, and TRAYNOR, Justices.
ORDER
This 12th day of November 2020, having considered the appellant’s motion
for reargument of the October 15,2020 Order affirming the Court of Chancery Order
dated August 1,2019, the Court concludes that the motion for reargument is without
merit and should be denied.
NOW, THEREFORE, IT IS ORDERED that the motion for reargument is
DENIED.
BY THE COURT:
/s/ James T. Vaughn, Jr.
JUSTICE

D ,

EFiSed: Nov 12 2020 10:53A?

Filing ID 66103643

IN THE SUPREME COURT OF THE STA^&PT®A#.M119
JAKARA VESTER,

j

\

§

§
Counterclaim Plaintiff Below,

Appellant,
v.

§
§
§
§
§
§

No. 417, 2019
Court Below-Court of Chancery
of the State of Delaware
C.A. No. 7229-VCG

HENLOPEN LANDING
HOMEOWNERS ASSOCIATION, INC., §
and PREMIER POOL AND PROPERTY §
MANAGEMENT, LLC,
§
Counterclaim Defendants Below,

Appellees.

§
§
§

Submitted: October 30, 2020
Decided: November 10, 2020
Corrected: November 12, 2020
Before SEITZ, Chief Justice; VALIHURA, VAUGHN, TRAYNOR, and
MONTGOMERY-REEVES, Justices, constituting the Court en Banc.
ORDER
This 12th day of November 2020, having considered the appellant’s motion
for rehearing en banc of the October 15,2020 Order affirming the Court of Chancery
Order dated August 1, 2019, the Court concludes that the motion for rehearing en
banc is without merit and should be denied.
NOW, THEREFORE, IT IS ORDERED that the motion for rehearing en banc
is DENIED.
BY THE COURT:
/s/ James T. Vaughn, Jr.
JUSTICE

STATE OF DELAWARE

}
} ss.

KENT COUNTY

}

I, Lisa A. Dolph, Clerk of the Supreme Court of the State of Delaware, do
hereby certify that the foregoing is a true and correct copy of the Orders dated
October 15,2020 and November 10,2020 corrected November 12,2020, in Jakara
Vester v. Henlopen Landing Homeowners Association, Inc. and Premier
Property and Pool Management LLC., No. 417,2019, as it remains on file and of
record in said Court.

IN TESTIMONY WHEREOF,
I have hereunto set my hand and affixed the seal
of said Court at Dover this 13 th day ofNovember
A.D. 2020.
/s/ Lisa A. Dolph
Clerk of the Supreme Court

Additional material
from this filing is
available in the
Clerk's Office.

